E-Mail Address:

contact@cocklelegalbriefs.com

@OCKLE

Legal Briefs

Est. 1923

2311 Douglas Street
Omaha, Nebraska 68102-1214

1-800-225-6964 Web Site

(402) 342-2831 www.cocklelegalbriefs.com
Fax: (402) 342-4850

No. 19-581

PAUL DOVIN, et ux.,
Petitioners,
v.
KENNETH L. SWEITZER, et al.,
Respondents.
CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the BRIEF IN OPPOSITION TO
PETITION FOR WRIT OF CERTIORARI in the above entitled case complies with the typeface
requirement of Supreme Court Rule 33.1(b), being prepared in New Century Schoolbook 12 point
for the text and 10 point for the footnotes, and this brief contains 4940 words, excluding the parts

that are exempted by Supreme Court Rule 33.1(d), as needed.

Subscribed and sworn to before me this 26th day of November, 2019. ~
1am duly authorized under the laws of the State of Nebraska to administer oaths.

PATRICIA BILLOTTE

General Notary .
Site tetas hes Colt Qudeaw-h, Ghly
My Commission Expires Nov 24, 2020

Notary Public Affiant 39076

 

 
